   SUWIC    DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL
/'~~
{~
'+·~::~tr
                                                                               Office of Audit Services
                                                                               Region I
                                                                               John F. Kennedy Federal Building
                                                                               Boston, MA 02203
                                                                               (617) 565-2684
            OCT 2 0 2008
           Report Number: A-OI-08-00005

           Judy Ann Bigby, MD
           Secretary
           Executive Office of Health and Humal1 Services
           One Ashburton Place, 11 th Floor
           Boston, Massachusetts 02108

           Dear Dr. Bigby:

           Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
           General (OIG), final report entitled "Audit of Controls Over Collecting Rebates on Single Source
           Drugs Administered by Physicians in Massachusetts." We will forward a copy of this report to
           the HHS action official noted below.

           Pursual1t to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
           Public Law 104-231, OIG reports generally are made available to the public to the extent the
           information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
           will be posted on the Internet at http://oig.hhs.gov.

           If you have any questions or comments about this report, please direct them to the HHS action
           official. Please refer to report number A-01-08-00005 in all correspondence.

                                                        Sincerely,

                                                       .)-    ;/ t/--- 1          .
                                                       /J{U.ftt:c/lj.   fIX :",1~f4!(>!,,~
                                                       Michael J. Atfustrong            J
                                                       Regional Inspector General
                                                        for Audit Services


           Enclosure


           HHS Action Official:

           Jackie Gamer, Consortium Administrator
           Consortium for Medicaid and Cllildren's Health Operations
           Centers for Medicare & Medicaid Services
           233 North Michigan Avenue, Suite 600
           Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  AUDIT OF CONTROLS OVER
   COLLECTING REBATES ON
    SINGLE SOURCE DRUGS
 ADMINISTERED BY PHYSICIANS
      IN MASSACHUSETTS




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-01-08-00005
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                       at htlp://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act (the Act). For a manufacturer’s covered outpatient drugs to be eligible for
Federal Medicaid funding under the program, the manufacturer must enter into a rebate
agreement with the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates
to the States. CMS, the States, and drug manufacturers each undertake certain functions in
connection with the drug rebate program. In Massachusetts, the Executive Office of Health and
Human Services, Office of Medicaid (the State agency), is responsible for the drug rebate
program.

Section 6002(a) of the Deficit Reduction Act of 2005 amends section 1927 of the Act and
requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.
This current review of the controls over collecting rebates on single source drugs administered
by physicians is part of a nationwide series of reviews conducted to determine whether States
have complied with the new requirement.

OBJECTIVE

Our objective was to determine whether the State agency had established controls over collecting
rebates on single source drugs administered by physicians.

RESULTS OF AUDIT

The State agency had established controls over collecting rebates on single source drugs
administered by physicians. Thus we have no recommendations.




                                                i
                                                 TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
                Drug Rebate Program ..............................................................................1
                Physician-Administered Drugs ................................................................1
                Massachusetts Drug Rebate Program ......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
                  Objective ..................................................................................................2
                  Scope........................................................................................................2
                  Methodology ............................................................................................3

RESULTS OF AUDIT.........................................................................................................3




                                                                   ii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In Massachusetts, the Executive Office of Health
and Human Services, Office of Medicaid (the State agency) is responsible for the drug rebate
program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identify,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This is part of Form CMS-64,
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.

1
 This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1, 2008.


                                                        1
In Massachusetts, physician-administered drugs are billed to the State Medicaid program on a
physician claim form using procedure codes that are part of the Healthcare Common Procedure
Coding System. During our audit period, the NDC was not included on the physician claim
form. The procedure code identifies a drug by its active ingredient(s) and identifies the number
of drug units (billing units) allowed per reimbursement for that procedure code. Rebates are
calculated and paid based on NDCs rather than on procedure codes. In addition, the billing units
for a procedure code may differ from the units used for rebate purposes (e.g., grams versus
liters). Thus, before rebates can be determined, procedure codes must be converted into NDCs
for single source drugs, and procedure code billing units must be converted into equivalent NDC
billing units.

Massachusetts Drug Rebate Program

The State agency contracts with the University of Massachusetts Medical School (UMass) and
its Medicaid claim processor, Affiliated Computer Services, Inc. (ACS). UMass is responsible
for converting procedure code billing units into equivalent NDC billing units for physician-
administered drugs. ACS’s responsibilities include processing the drug rebate tape with the unit
rebate amounts from CMS, preparing and mailing invoices to manufacturers, and collecting and
depositing drug rebate payments.

For the fiscal year ending June 30, 2006, the State agency reported rebate billings of
approximately $252.6 million and collections of approximately $279.6 million on its Forms
CMS-64.9R.

The DRA requires States as of January 2006 to begin collecting rebates on single source drugs
administered by physicians. This current review of the State agency’s controls over collecting
rebates on physician-administered single source drugs is part of a nationwide series of reviews
conducted to determine whether States have complied with the new requirement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency had established controls over collecting
rebates on single source drugs administered by physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program.

We performed our fieldwork at the State agency and at UMass’s offices in Boston,
Massachusetts, from July to September 2008.




                                                2
Methodology

To accomplish our objectives, we:

   •   reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
       State Medicaid directors, and other information pertaining to the Medicaid drug rebate
       program;

   •   interviewed State agency, UMass, and ACS officials to determine the policies,
       procedures, and controls related to the Medicaid drug rebate program;

   •   interviewed UMass and ACS staff to determine the processes used in converting
       physician services claims data into drug rebate data related to single source drugs
       administered by physicians; and

   •   reviewed rebate billings and reimbursements for procedure codes related to single source
       drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                    RESULTS OF AUDIT

The State agency had established controls over collecting rebates on single source drugs
administered by physicians, as the DRA requires. Thus we have no recommendations.




                                                3
